1111

:;:    Mar. 7. 2008 4:21PM                                                                110. 7024     P. 1


~
                           NATIONAL RAILROAD PASSENGl1R CORPORATION
                                 OFFICE OF lNSPECTOR GENERAL
                                   OFFICE OF INVESTIGATIONS
                                     INVESTIGATIVE REPORT


             TITLE:                       ~lvCASENUMBER: 02·119'

             DATE OF REPORT:               March 7,2008

             REPORT PREPARED BY: RSA_• •

             REPORT OF INTERVJEW:
             REPORT OF DOCUMENTS:
             GTHER ACTNITY (DESCRIBE): Closing Renort

             AlIeglltion

                                             oro Auditor, received an anonymous letter.
                                                                                      The letter
                                   I'mduclR Corporation is alleged to have used carpet that was
             purchased by Amtrak to be usee! for an Amtrak project but insteae! Unlted Products
             Corporation used the carpet to remodel Its offices.

            Findings

            OJ fOlutd that United Products Corporation did use some of Amtrak's carpet fol'
            remodeling of its offices. The fllldings of fact did not amount to a case that could be
            prosecuted.             .

            The case was turned ovcr to Amtrak's Law Department and they were requested by or to
            attompt to recover the funds regarding he carpet use.

            United Products Corporation wont bankl1lpt. The debtor of United Produots Corporation
            attempted to recover money from Amtrak that was owed to them by Amtt'ak.

            _ _                                      advised that Amtrak's Lnw Department does
            ~'case against                                      Corporate any further and consider
            the matter olosed. _      provided a copy of the Judgment by Default against Amtrak
            document to or which is appended to tWs report as Exhibit # 1.

            Recomincndllt!ons:

            With uo ftll'lhel' lends qr developments regarditlg this case it should be closed pending
            any new information.
            Depuly Inspector GeneraVCollllse!'S Signature:


                                                       1
